OFF
  FICE OF IN
           NSPE
              ECTO
                 OR GE
                     ENER
                        RAL


AUDIT OF USAIID/PA
                 AKIS
                    STAN
                       N’S
GO
 OMALL ZAM MULTIPUR RPOSE
DAM PRROJECT
           T

         ORT NO
AUDIT REPO     O. G-39
                     91-12-00
                            08-P 

AUGU
   UST 24, 2012





ISLAM
    MABAD
        D, PAKIS
               STAN
Office of Inspector Geeneral


August 24, 2012

     ANDUM
MEMORA

TO:       	          USAID
                         D/Pakistan Mission Director, Jonath
                                                           han M. Conlyy

FROM: 	              OIG/P
                         Pakistan Dire
                                     ector, Joseph Farinella / s/

     CT: 	
SUBJEC               Audit of USAID/Paakistan’s Go
                                                 omal Zam M ultipurpose Dam Projecct
                     (Repoort No. G-391-12-008-P))

This memmorandum transmits ou
                            ur final report on the su
                                                    ubject audit. In finalizin
                                                                             ng the reporrt, we
considere
        ed your com
                  mments and included youur response in Appendixx II.

The repoort contains one recommmendation to help imprrove the Go    omal Zam Multipurpose Dam
Project. Based on information provided by   y the missio  on, a mana agement de  ecision has been
reached on the re  eport’s recommendation   n. Please c oordinate final action with the Audit
Performaance and Co ompliance Division in the
                                            e Office of th
                                                         he Chief Fina           e r.
                                                                     ancial Office

I want to thank you and your sta
                               aff for the co
                                            ooperation and courtesie
                                                                   es extended to us during
                                                                                          g this
audit.




U.S. Agency for International Development
U.S. Embasssy, Diplomatic Enc clave
            amabad, Pakistan
Ramna 5, Isla                 n
www.usaid.gov/oig
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 3 


     USAID’s Timely Intervention Advanced Project Goals............................................................ 3 


     Completion of the Dam Was Behind Schedule ....................................................................... 4 


Evaluation of Management Comments..................................................................................... 6 


Appendix I—Scope and Methodology ...................................................................................... 7 


Appendix II—Management Comments ..................................................................................... 9 

SUMMARY OF RESULTS 

Pakistan’s chronic, severe electricity shortages and looming water scarcity threaten the
country’s political and economic stability.       In particular, the southern belt of Khyber
Pakhtunkhwa, an underdeveloped yet strategically important area vulnerable to extremism,
lacks electricity and water for agriculture. To provide stability and economic opportunity, the
government has chosen hydropower to help generate electricity in South Waziristan, Dera
Ismail Khan, and Tank and to irrigate and cultivate land in the latter two.

In 2002, Pakistan’s Water and Power Development Authority (WAPDA), a government-owned
public utility, began dam construction on the Gomal River in South Waziristan. The tribal elders
of South Waziristan provided the land for the main dam and water storage area. However, work
was suspended in 2004 because of the kidnapping and subsequent killing of an employee of
WAPDA’s foreign contractor. WAPDA resolved the security problem in 2007 by awarding a
contract for the dam project to Frontier Works Organization, a construction and military
engineering branch of the Pakistani Army. Frontier Works agreed to provide the necessary
security in the project area and subcontracted the construction work to foreign contractors, one
for the dam and the other for the irrigation system. Because WAPDA ran out of funding for the
project, construction progress was slow, and on June 24, 2010, the subcontractor building the
dam issued a notice of suspension for nonpayment of its invoices.

The Government of Pakistan approached USAID/Pakistan for financial support, and in January
2011, USAID/Pakistan entered into a fixed-amount reimbursement agreement with WAPDA
(according to which USAID reimburses WAPDA for expenses only after agreed-upon milestones
have been certified by monitoring firms hired by USAID). USAID agreed to provide $40 million
to complete the Gomal Zam Dam, which was 88 percent complete and included the dam
structure, the hydropower and switchgear component, and the transmission line. In October
2011, USAID/Pakistan amended the agreement to include an additional $40 million to fund the
irrigation component of the project, which was then 23 percent complete and included a main
canal, distributaries, a barrage, and floodwater channels. As of July 2012, USAID/Pakistan had
obligated approximately $80 million and spent $55 million for the project.

The main objectives of the project are to help the Government of Pakistan (1) meet more
demand for electricity by adding power to the national power grid, (2) store water to provide a
reliable source for irrigation, and (3) provide for flood control. When complete, the project is
expected to use the water resources of the Gomal and Zhob Rivers to provide electricity to
25,000 households, irrigate 163,000 acres of land to generate economic activity, and control
flooding.

The Office of Inspector General (OIG) conducted this audit to determine whether
USAID/Pakistan’s funding to complete the Gomal Zam Multipurpose Dam Project was
contributing to achieving the project goals of power generation, irrigation, and flood control.
Audit findings follow:

•	 The audit confirmed that USAID’s timely funding of Gomal Zam Multipurpose Dam was
   contributing to achieving the project goals of power generation, irrigation, and flood control
   (page 3). The dam was 98 percent complete. The irrigation component was 45 percent
   complete and on schedule. During the audit, OIG visited the dam site and the areas that
   benefit from the irrigation system. OIG noted that the southern districts of Khyber


                                                                                               1
   Pakhtunkhwa need water and energy, and that construction of the dam and the irrigation
   system should help meet these needs. In addition, OIG learned from local stakeholders that
   the dam construction helped mitigate flood damage in 2011.

•	 Notwithstanding this progress, completion of the dam was at least 3 months behind
   schedule (page 4). The subcontractor was assembling a key part offshore and still
   petitioning for outstanding payments.

Therefore, the report recommends that USAID/Pakistan:

1. 	Implement a coordinated action plan with WAPDA for the timely completion of the dam
    (page 5).

Detailed findings appear in the following section. The audit scope and methodology are
described in Appendix I. Full text of management comments appears in Appendix II, and our
evaluation of management comments is included on page 6.




                                                                                           2
AUDIT FIND
         DING
            GS 

USAID
    D’s Timely
             y Interven
                      ntion
Advanced Proje
             ect Goalss
USAID committed fu   unding to the Gomal Za    am Multipurp
                                                          pose Dam Project to co
                                                                               omplete the dam
and build
        d an efficientt irrigation an
                                    nd drainage system.

Auditors determined d that USAID funding was contribu     uting to ach hieving the project goa als of
power ge eneration, irrigation, an
                                 nd flood con ntrol. As o f July 2012 2, the dam was 98 pe    ercent
completee, with only the switchg gear and the e wiring of t he transmisssion line to
                                                                                   o the grid sttation
unfinishe
        ed. Almost 45 percent off the irrigatio
                                              on system h ad been constructed, and the workk was
on scheddule.

As of July 2012, USA  AID funding allowed for the complettion of the main dam strructure, testiing of
equipment, and ass    sembly of 194 of 201 transmissio     on towers frrom the da am site in South
Wazirista an to the grid
                       d station 55 kilometers east in Tankk. The dam is designed d to produce
                                                                                             e 17.4
megawattts of electriccity, serving the needs of at least 25
                                                           5,000 households; at the
                                                                                  e time of OIG
                                                                                              G site
visits, the
          e water leve el in the res
                                   servoir (sho
                                              own below) was at 81 meters or approximate     ely 65
percent of capacity.




Water fro
        om the reserv
                    voir (left) pou
                                  urs through the dam (rig
                                                         ght). (Photos
                                                                     s by OIG, Jun
                                                                                 ne 2012)
 
During visits to the dam and irrigation co  onstruction sites, OIG interviewedd Governme  ent of
Pakistan representa atives, loca al workers, and othe    er stakehollders and verified prroject
implementation. OIG G noted tha at the southe
                                            ern belt of K hyber Pakhhtunkhwa ne eeds energyy and
        nd the construction of the dam and irrigation sysstem should help meet these needs.
water, an

OIG disc  cussed with h local farm mers the irrrigation tech
                                                           hniques the ey were ussing—like sttoring
floodwate er on the fie
                      elds—and th  he drawback ks of these t echniques. The reservvoir and irrig
                                                                                               gation
system being built (p pictured on the next pagge) should m ake water available to farmers and  d help
irrigate 163,000 acre es of land, in
                                   ncreasing the
                                               e economic benefits of 30,000 housseholds. Further,
local stakeholders noted that, even while under consttruction, the    e dam proteected the arear    in




                                                                                                    3
Irrigation
         n work underr way include
                                 es a barrage
                                            e for water diiversion (leftt) and canal distributarie
                                                                                                 es like
the one above (right). (Photos byy OIG, June 2012)

2011 by storing mons
                   soon floodwaters.
                               w        In the
                                             e future, floo
                                                          odwater channels will ca
                                                                                 arry excess water
downstre
       eam to dry areas for irrig
                                gation.

Auditors noted that USAID’s inte ervention waas timely beecause WAP   PDA had run out of fun nds to
completee the projec ct. Although the projecct began in 2002, secu    urity problem
                                                                                  ms and finaancial
constrain
        nts slowed progress. Be efore USAIDD’s involveme ent, construuction had allmost halted
                                                                                             d with
the dam 88 percent complete. The foreign subcontracto    or, which haad not been paid what itt was
owed, ha ad started demobilizing g its workfo
                                            orce. Had U SAID not agreed in January 201        11 to
contribute $40 million
                     n to complette the dam, the project m ight have fo
                                                                      olded.

Despite the positive
                   e developme ents, the daam had not started gen  nerating pow
                                                                              wer because
                                                                                        e the
switchge
       ear had not been installed. This issu
                                           ue is discusssed below.

Complletion of the Dam Was
Behind
     d Schedu ule
 
The agreeement signeed in Januarry 2011 had a target endd date of Ma
                                                                   ay 2011 for the completiion of
the switc
        chgear compponent of thee Gomal Zam  m Multipurpo
                                                        ose Dam Prroject. The mission exte
                                                                                         ended
the deadline to June 30, 2012, in
                                n a revision dated Decemmber 2011.

As of Jully 2012, the switchgear componentt had not be  een installed, and complletion of the e dam
was at le east 3 montths behind schedule. During site v isits, OIG observed tha    at the switch
                                                                                               hyard
structuree, which conttains the sw
                                 witchgear, wa
                                             as only partia
                                                          ally built. Co
                                                                       ompleting the switchyardd and
installing the switchg
                     gear compon nent are necessary to beegin generatting electricitty.

According to WAPD  DA officials, the switchy
                                           yard was 91 1 percent co  omplete whe  en it was buried
under a landslide ca
                   aused by exc cessive rain
                                           n in 2010. A new switch   hyard locatioon was sele
                                                                                            ected,
and new
      w equipment had to be ordered. Be    ecause the s witchgear component is being cusstom-
made ouutside the coountry, proc
                               curing it has taken moree time than expected. Additionallyy, the
subcontractor
       r       was still seekingg compensa  ation for ann outstanding payment, and this was
impeding
       g progress. Further, the e subcontraactor had noot reassemb  bled the salvvaged switch
                                                                                            hyard
        ng units (wh
generatin          hich were cleaned afterr the landslidde), in spite
                                                                    e of repeated instruction
                                                                                            ns by
WAPDA to do so.



                                                                                                      4
WAPDA’s delayed payment to its subcontrractor is no     ot covered by USAID fu   unding; howwever,
completin ng the switchyard and reassembling its com   mponents (sh   hown below w) are. WA APDA
officials said they we
                     ere working with the subc
                                             contractor to
                                                         o resolve theese problem
                                                                                ms. Nevertheeless,
they estimated the interruptionss have cost about $10.5  5 million in labor, engin
                                                                                 neering fees, and
security.




At left is
         s the incompplete switchy
                                 yard structurre. At right u ninstalled hy
                                                                         ydropower components wait
inside thhe structure. (Photos byy OIG, June 2012)

WAPDA and the su      ubcontractorr are responsible for re  esolving the
                                                                       e matters discussed ab  bove.
Howeverr, given proje ect cost incrreases and WAPDA’s liimited financcial resourcees, if the maatters
are not rresolved, thee dam may not be comp  pleted, and USAID’s contribution off $80 million n may
not yield the desired d results of power gene eration, irrig
                                                           gation, and flood contro
                                                                                  ol. Therefore
                                                                                              e, we
make the e following re
                      ecommenda  ation.

   Recoommendatio   on 1. We recommend
                              re         that USAID
                                                  D/Pakistan im mplement a coordinate   ed
   action
        n plan with Water and Power Develo
                                         opment Auth
                                                   hority for the
                                                                e timely com
                                                                           mpletion of th
                                                                                        he
   dam. 




                                                                                                   5
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Pakistan agreed with the findings and the recommendation in the report.

Recommendation 1. USAID/Pakistan agreed to work with Water and Power Development
Authority to implement a coordinated action plan by December 31, 2012, for completing the
Gomal Zam Multipurpose Dam. Accordingly, a management decision has been reached on
Recommendation 1.

The Audit Performance and Compliance Division will make a determination of final action on
completion of the planned corrective actions. The mission’s written comments on the draft
report are included in their entirety as Appendix II.




                                                                                        6
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Pakistan’s funding to complete the
Gomal Zam Multipurpose Dam Project was contributing to achieving the goals of power
generation, irrigation, and flood control. The fixed-amount reimbursement agreement for this
project was signed in January 2011 and is set to end in September 2013. This audit focused on
the contribution made by USAID/Pakistan in completing this project from January 2011 through
July 2012. As of July 2012, USAID/Pakistan had obligated $80 million and expended
approximately $55 million for this project.

The audit team reviewed mission documents concerning project management—agreements,
implementation plans, progress reports, the monitoring and evaluation plan, and procedures.
Additionally, the audit team interviewed USAID/Pakistan project administrators, Government of
Pakistan officials, implementing and monitoring partners, and project beneficiaries.

We reviewed applicable laws and regulations as well as USAID policies and procedures
pertaining to USAID/Pakistan’s Gomal Zam Multipurpose Dam Project, including Automated
Directives System Chapter 317, supplemental guidance. Audit fieldwork was performed at
USAID/Pakistan and the monitoring partner’s main office in Islamabad from May 14 through
July 16, 2012. Fieldwork also included site visits to Dera Ismail Khan, Tank, and the tribal areas
of South Waziristan in Khyber Pakhtunkhwa from May 29 through June 1, 2012.

In planning and performing the audit, the audit team assessed relevant controls used by the
mission to manage the project and provide adequate oversight of project activities. These
controls included maintaining regular contact with the implementing and monitoring partners and
reviewing project files.

Methodology
To answer the audit objective, the audit team interviewed officials in the mission’s Economic
Growth and Agriculture Office and Energy Office, which manage project implementation. We
also interviewed officials at the implementing partner’s field offices and monitoring partners’
offices, as well as local residents. Through interviews and documentation, the audit team
obtained an understanding of (1) the project’s main goals, (2) how performance indicators,
targets, and baseline data were determined to measure the progress of the project, (3) how the
mission checks the quality of the data reported by the implementing partner, (4) how the mission
monitors the implementation of activities, and (5) whether the mission is aware of any
allegations of fraud or other potential illegal acts or noncompliance with laws and regulations.




                                                                                                7
                                                                                    Appendix I


The audit team reviewed the agreement and amendments, monthly and quarterly progress
reports, and benchmark payments. Having reviewed the progress report, the audit team
performed site visits of the dam, the barrage, the main canal, four distributaries, and one
floodwater channel to verify their completion. We also interviewed local residents to determine
the impact of this project.




                                                                                             8
                                                                                      Appen
                                                                                          ndix II



MA
 ANAG
    GEMENT
         T COM
             MME
               ENTS
                  S




MEMOR
    RANDUM



Date:          Augusst 09, 2012

To:            Joseph
                    h Farinella
               Directtor OIG/Pakkistan

From:          Jonath
                    han M. Conlly /s/
               Missio
                    on Director USAID/Pak
                                U       kistan

Subject:       Management Com mments on th
                                         he Audit of USAID/Pakiistan’s Gomal Zam
                    purpose Dam
               Multip         m Project

Referencce:    Reporrt No. G-391
                               1-12-00X-P dated July 19, 2012



       onse to the referenced draft auditt report, pleease find below Missiion manageement
In respo
commentts on the recommendatio
                             on included therein.


Recomm mendation No.1 We reco ommend that USAID/PPakistan im
                                                           mplement a coordinated  d
action pllan with Wa
                   ater and Power Development Auth
                                                 hority for th
                                                             he timely coompletion off the
dam.

Managem
      ment Comm
              ments:

Mission Managemen nt concurs wiith the recom
                                           mmendation . The Missioon is working with Wateer and
Power Development Authority (WWAPDA) to    o develop a c oordinated action plan for completiion of
Gomal Zam Dam. Final action    n on this recommendaation is exppected to be completeed by
Decembeer 31, 2012.




                                                                                                9
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
